HHS/OIG, Audit -"Review of Providers' Responsiveness to Requests for Medical Records Under the Comprehensive Error Rate Testing Program,"(A-01-04-00517)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Providers' Responsiveness to Requests for Medical Records Under
the Comprehensive Error Rate Testing Program," (A-01-04-00517)
September 29, 2004
Complete
Text of Report is available in PDF format (1.38 mb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our review, conducted in response to congressional concerns, determined that
Centers for Medicare and Medicaid Services has made excellent progress in obtaining
medical records by reducing the provider nonresponse rate to less than 1 percent
of the number and dollar value of claims included in the Comprehensive Error
Rate Testing (CERT) FY 2004 sample.  We do not believe that the remaining
nonresponses will have a significant effect on the reliability of CMSs estimate
of the Fiscal Year 2004 Medicare fee-for-service paid claims error rate.  Our
report discusses reasons cited by providers for the nonresponses.